Law Office of
N. Albert Bacharach, Jr., P.A.
4128 NW 13th Street
Gainesville, FL 32609-1807
Phone: (352) 378-9859
Toll Free: (833) 378-9859
Fax: (352) 338-1858
E-Mail: N.A.Bacharach@att.net

June 10, 2021
Via Electronic Filing Only
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Rachel Threatt v. Ryan Thomas Farrell, et al.
No. 20–1349
Dear Mr. Harris:
I write on behalf of my client, Estefania Osorio Sanchez, in response to your
letter of May 11, 2021 on behalf of the Court.
Ms. Osorio Sanchez, who, along with Amy Collins and Rachel Threatt, was
an Objector in the U.S. District court and an Appellant in the U.S. Court of Appeals
for the Ninth Circuit. Thus, although Ms. Osorio Sanchez is technically a
respondent pursuant to Rule 12, section 6 of the Rules of the Supreme Court of the
United States, she was an objecting class member who, along with Petitioner
Threatt, opposed the attorneys’ fees requested by, and awarded to, class counsel.
Having thoroughly reviewed Ms. Threatt’s Petition for a Writ of Certiorari,
Respondent Osorio Sanchez informs the Court that she fully and unequivocally
supports the position of Petitioner Threatt and the granting of the Writ of
Certiorari.
Because of their unity of interest Ms. Osorio Sanchez does not intend to file a
more formal response.
Thank you for you attention in this matter.
Respectfully Submitted,
/s/ N. Albert Bacharach, Jr.
N. Albert Bacharach, Jr.
cc: Counsel of Record

